           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    ASSIGNMENT OF SOCIAL SECURITY
    NUMBERS TO INDIVIDUALS IN THE
        COMMONWEALTH OF THE
      NORTHERN MARIANA ISLANDS
         AND AMERICAN SAMOA

      February 2009   A-08-08-18098




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   February 25, 2009                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Assignment of Social Security Numbers to Individuals in the Commonwealth of the
        Northern Mariana Islands and American Samoa (A-08-08-18098)


        OBJECTIVE
        Our objective was to assess the Social Security Administration's (SSA) process for
        assigning Social Security numbers (SSN) to individuals in the Commonwealth of the
        Northern Mariana Islands (CNMI) and American Samoa.

        BACKGROUND

        The Northern Mariana Islands are a Commonwealth of the United States located in the
        North Pacific Ocean, and American Samoa is an unincorporated territory of the
        United States located in the South Pacific Ocean. Each of these insular areas 1 has its
        own government and immigration system. Individuals born in the CNMI are
        U.S. citizens and those in American Samoa are U.S. nationals (considered the same as
        U.S. citizens for SSA purposes). 2 However, thousands of noncitizens travel to these
        insular areas each year to work. Appendix B provides a description of the CNMI and
        American Samoa and a map showing their locations.

        Individuals in these insular areas can apply for an SSN at SSA’s field offices in
        Saipan, CNMI, and Pago Pago, American Samoa. When applying for an original SSN,
        applicants must provide acceptable documentary evidence of (1) age, (2) identity, and
        (3) U.S. citizenship or work-authorized lawful noncitizen status and/or a valid nonwork
        reason. 3 In 2007, SSA field offices in the CNMI and American Samoa assigned over
        5,200 original SSNs to U.S. citizens and noncitizens. Appendix B (Figures 1 and 2)
        shows the number of SSNs these field offices assigned by citizenship and country of
        birth and the age of noncitizens.

        1
         Insular area is the generic term that refers to any commonwealth, freely associated state, possession,
        or territory of the United States.
        2
            Program Operations Manual System (POMS), section GN 00303.120.A.6&7.
        3
            POMS, section RM 00203.001C.
Page 2 - The Commissioner


To accomplish our objective, we identified a population of 5,229 individuals to whom
SSA assigned original SSNs based on applications processed at the Saipan and
Pago Pago field offices in 2007. From this population, we randomly selected a sample
of 200 SSNs to determine whether SSA personnel followed applicable policies and
procedures when processing SSN applications. To learn more about the challenges
SSA faces in assigning SSNs to individuals in the CNMI and American Samoa, we
interviewed representatives from SSA’s Office of Income Security Programs and the
managers of the Saipan and Pago Pago field offices. We also interviewed Department
of the Interior, Office of Insular Affairs, 4 and Department of Homeland Security (DHS)
officials about immigration and security issues. Because of DHS’ responsibilities for
immigration enforcement and the Department of the Interior’s responsibilities for
administrative oversight of insular areas, we will provide copies of this report to the
Inspectors General of those agencies. Appendix C includes a detailed description of
our scope and methodology.

RESULTS OF REVIEW

We are concerned that SSA’s policies and practices may place it at-risk for improper
SSN assignment to individuals in the CNMI and American Samoa. Specifically,
because SSA relies on the CNMI and American Samoa immigration systems (not DHS
immigration verification and screening), we are concerned about the potential that SSA
may assign SSNs to individuals who may not be who they purport to be. However,
during our audit, the United States enacted legislation applying U.S. immigration law to
the CNMI. While we are encouraged by this legislation, until DHS implements final
regulations, key details regarding noncitizen workers remain unknown. We are
unaware of any proposed legislation to apply U.S. immigration law to American Samoa.
In addition, SSA processed noncitizen SSN applications at its Saipan and Pago Pago
field offices without written operating policies and procedures. Finally, field office
personnel in Pago Pago, American Samoa, did not always document their independent
verification of birth records for individuals claiming U.S. citizenship.




4
 The Department of the Interior, Office of Insular Affairs has administrative responsibility for CNMI (per
Executive Order 12572-Relations with the Northern Mariana Islands, November 3, 1986) and
American Samoa (per Executive Order 10264-Transfer of the Administration of American Samoa from the
Secretary of the Navy to the Secretary of the Interior, June 29, 1951).
Page 3 - The Commissioner


SSA RELIES ON CNMI AND AMERICAN SAMOA IMMIGRATION AGENCIES WHEN
PROCESSING NONCITIZEN SSN APPLICATIONS

Because SSA relies on the CNMI and American Samoa immigration systems to help
establish lawful noncitizen status—a key requirement for SSN assignment—we are
concerned about the potential for improper SSN assignment. Unlike DHS, the CNMI
and American Samoa do not conduct the same level of screening and background
checks to identify individuals who have criminal records or may be a danger to
U.S. security.

We are concerned about SSN assignment in the CNMI because the Department of the
Interior and the Government Accountability Office have expressed concerns about the
administration of its immigration system, including the lack of an effective pre-screening
process for noncitizens who wish to enter the CNMI to work. 5 For example, the Deputy
Assistant Secretary of the Interior for Insular Affairs testified before Congress in 2007
that “. . . in a post 9/11 environment, and given the CNMI’s location and the number of
aliens that travel there, we believe that continued local control of the CNMI’s
immigration system presents significant national security and homeland security
concerns.” As such, inadequate verification and screening could increase the potential
for SSA to assign SSNs to noncitizens who are not authorized to work or who they
purport to be.

In May 2008, the United States enacted legislation applying U.S. immigration law 6 to the
CNMI—1 year after enactment subject to a transition period that begins on June 1, 2009
and ends on December 31, 2014. 7 The legislation’s stated intent is to ensure effective
border control procedures and protect national and homeland security. While we are
encouraged by this legislation, until DHS implements final regulations, key details
regarding noncitizen workers remain unknown.

The Department of the Interior and DHS officials we interviewed were not aware of
proposed legislation to apply U.S. immigration law to American Samoa. As such, SSA
will continue to depend on American Samoa’s immigration system to help it establish
lawful noncitizen status. The Department of the Interior and DHS officials told us they
believe the potential security risks in American Samoa are not as great as in the CNMI,
mainly because American Samoa is more geographically isolated, and most foreign
workers come from nearby Samoa. While we believe SSA is potentially vulnerable to

5
 In its August 2008 report, Commonwealth of the Northern Mariana Islands: Managing Potential
Economic Impact of Applying U.S. Immigration Law Requires Coordinated Federal Decisions and
Additional Data (GAO-08-791), the Government Accountability Office reported that, in 2005, foreign
workers (noncitizens) represented the majority of all CNMI workers and outnumbered U.S. citizens in
most industries.
6
    As defined in section 101(a)(17) of the Immigration and Nationality Act (8 U.S.C. 1101(a)(17)).
7
 The Consolidated Natural Resources Act of 2008, P.L. 110-229 (S.2739). According to the Act, the
Secretary of Homeland Security has discretion to delay the start of the transition period for up to
180 days.
Page 4 - The Commissioner


improper SSN assignment in American Samoa because of the absence of
U.S. immigration law, we acknowledge the security risk may not be as great as in the
CNMI.

SSA PROCESSED NONCITIZEN SSN APPLICATIONS WITHOUT WRITTEN
OPERATING POLICIES AND PROCEDURES

Internal control standards require that controls be clearly documented and such
documentation appear in management directives, administrative policies, or operating
manuals. 8 However, SSA processed noncitizen SSN applications at its Saipan and
Pago Pago field offices without written operating policies and procedures. 9 That is,
neither POMS nor SSA regional instructions specifically addressed the unique
immigration situation (non-DHS screening) in the CNMI and American Samoa.
Although POMS provides a list of acceptable immigration documents that establish
lawful noncitizen status for SSN applications, 10 it does not specify the documents
noncitizens in the CNMI and American Samoa should provide to SSA.

Furthermore, we are concerned that no provision existed for SSA to assign SSNs to
noncitizens based on immigration and work documents issued by the CNMI and
American Samoa. Because neither POMS nor regional instructions stipulate what field
office personnel should consider as acceptable evidence of noncitizen status in the
CNMI and American Samoa, we do not believe that recognition of such immigration and
work permits satisfies SSA’s requirements for assigning SSNs.

When processing noncitizen SSN applications, both offices relied on historical
procedures. For example, Pago Pago field office personnel required that noncitizens
provide, as proof of work-authorized lawful noncitizen status, an immigration
identification and work-authorization letter issued by the American Samoa Immigration
Office. Although field office personnel did not verify these documents with
American Samoa immigration officials, they compared signatures on immigration
documents provided by noncitizens with a signature list of authorized immigration
officials to ensure they matched. While field office personnel in Saipan required that
noncitizens provide a CNMI entry permit (issued jointly by the Departments of Labor
and Immigration), like the Pago Pago field office, they did not verify immigration
documents with the issuing agency. However, in contrast to American Samoa, Saipan
field office personnel did not maintain an authorized signature list of immigration


8
  U.S. General Accounting Office (now referred to as the Government Accountability Office) Standards for
Internal Control in the Federal Government, GAO/AIMD-00-21.3.1, page 15 (Appropriate Documentation
of Transactions and Internal Control), November 1999.
9
 While we acknowledge that field office personnel process CNMI and American Samoa noncitizen SSN
applications through SS-5 Assistant, a Microsoft Access-based application to assist SSA personnel in
documenting evidence, the evidentiary documents listed in SS-5 Assistant for these noncitizens are not
based on written operating policies and procedures.
10
     POMS, section RM 00203.600.
Page 5 - The Commissioner


officials. As such, fraudulent documents may have gone undetected. In fact, the
Saipan field office manager acknowledged this potential vulnerability.

We believe it is important for the Saipan field office to have some means of verifying the
authenticity of immigration documents, such as comparing signatures on immigration
documents provided by noncitizens with a signature list of authorized immigration
officials to ensure they match. Although we acknowledge this interim step is not a
substitute for DHS screening, until U.S. immigration takes control, we believe it will help
reduce the potential for improper SSN assignment.

SSA has established specific policies and procedures for assigning SSNs to noncitizens
in similar unique situations. For example, citizens of Compact of Free Association
countries (currently the Federated States of Micronesia, Republic of the Marshall
Islands, and Republic of Palau) may enter, reside, and work in the United States without
regard to certain provisions of the Immigration and Nationality Act. 11 Because of this
unique situation, SSA established specific guidelines for field office personnel. We
believe similar policies and procedures (tailored to the specific immigration
circumstances in the CNMI and American Samoa) would help ensure proper SSN
assignment. Headquarters personnel we contacted generally agreed that written
operating procedures, such as those found in SSA’s POMS, would be beneficial.

FIELD OFFICE PERSONNEL DID NOT ALWAYS DOCUMENT VERIFICATION OF
BIRTH RECORDS

SSA policies and procedures require that field office personnel document evidence of
(1) age, (2) identity, and (3) U.S. citizenship or work-authorized lawful noncitizen status
and/or a valid nonwork reason when processing original SSN applications. Of the
200 SSN applications we reviewed, field office personnel generally complied with these
requirements. However, we found that field office personnel in Pago Pago,
American Samoa did not document independent verification of birth records for
individuals claiming U.S. citizenship in 22 instances. 12 Although we verified the birth
records for these individuals, SSA could be vulnerable to individuals providing false
documents to obtain an SSN and possibly enter the continental United States.
Established policies and procedures can only be effective if personnel processing SSN
applications comply with them. As such, we believe SSA should reemphasize the
importance of following all policies and procedures when processing SSN applications.




11
     POMS, section RM 00203.420.
12
     POMS, section RM 00203.110C.1.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We are encouraged that DHS is scheduled to take control of the CNMI immigration as
early as June 2009. However, in the interim, we believe SSA should take steps in its
Saipan field office to help ensure the validity of immigration and work documents
provided by noncitizens. Furthermore, we believe written operating polices and
procedures in both insular areas would help ensure proper SSN assignment.

Accordingly, we recommend that SSA:

1. Establish written policies and procedures, including a list of acceptable immigration
   and work-authorization documents, for assigning SSNs to noncitizens in the CNMI
   and American Samoa. When DHS assumes responsibility for CNMI immigration,
   SSA should reassess and revise its policies and procedures, as needed.

2. Until DHS assumes responsibility for the CNMI immigration, instruct the Saipan field
   office personnel to compare signatures on immigration documents provided by
   noncitizens with a signature list of authorized immigration officials to ensure they
   match.

3. Reemphasize to Pago Pago field office personnel the importance of following all
   enumeration policies and procedures.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency also provided a technical
comment that we incorporated. The Agency’s comments are included in Appendix D.


                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CNMI   Commonwealth of the Northern Mariana Islands
DHS    Department of Homeland Security
OIG    Office of the Inspector General
POMS   Program Operations Manual System
SSA    Social Security Administration
SSN    Social Security Number
                                                                                  Appendix B

Background

The Commonwealth of the Northern Mariana Islands (CNMI) is a group of 14 islands
located just north of Guam. The principal inhabited islands are Saipan, Rota, and
Tinian. In 1976, after almost 30 years as a trust territory, the District of the Mariana
Islands entered into a Covenant with the United States establishing the island territory’s
status as a self-governing Commonwealth in political union with the United States. 1
The Covenant grants the CNMI the right of self-governance over internal affairs and the
United States the responsibility and authority for matters relating to foreign affairs and
defense affecting the CNMI.

American Samoa consists of five islands located about 2,300 miles southwest of
Hawaii. The largest and most populated island is Tutuila, on which is located the
territory's capital, Pago Pago. It is an unincorporated territory because not all provisions
of the U.S. Constitution apply. The U.S. Congress has given plenary authority over the
territory to the Secretary of the Interior, who in turn allowed American Samoans to draft
their own constitution under which their government functions.

                            Location of the CNMI and American Samoa




            Source: Pacific Applications Climate Center website.




1
 Covenant to Establish a Commonwealth of the Northern Mariana Islands in Political Union with the
United States of America (Pub. L. No. 94-241, § 1, 90 Stat. 263 (Mar. 24, 1976), 48 U.S.C. § 1801 note).


                                                  B-1
As shown in Figure 1, most noncitizens entering the Commonwealth of the Northern
Mariana Islands and assigned Social Security numbers (SSN) through the Saipan field
office were from China and the Philippines. About 95 percent of the noncitizens were
between the ages of 16 and 50, as shown in Figure 1a. Based on an analysis of
Detailed Earnings Queries for the noncitizen SSNs in our sample, we found that about
6 (62 percent) of every 10 noncitizens assigned an SSN in the CNMI in 2007 had no
wages posted to their Social Security Administration (SSA) earnings record. Without
extensive investigation of each case, we could not determine the reason for this
situation.

              Figure 1: SSNs Assigned in 2007 by Citizenship and Country of Birth for
                         the Saipan, CNMI, Field Office




                                                                        Born in China
                                                                            644
             U.S. Citizens Noncitizens                                  Born in the
             1,382 (48%) 1,500 (52%)                                    Philippines
                                                                            563
                                                                       Born in Other
                                                                       Countries (22)
                                                                           293



                    Figure 1a: SSNs Assigned in 2007 by Age of Noncitizens for
                               the Saipan, CNMI, Field Office
                                                 Number of         % of
                             Age Range           Noncitizens       Total
                           0 to 15 2                  39              2
                          16 to 30                   938             63
                          31 to 50                   484             32
                          51 and above                39              3
                                 Total             1,500            100

    Source for Figures 1 and 1a: Office of the Inspector General analysis of original SSNs assigned in
    Calendar Year 2007.




2
 SSA generally assigned SSNs to noncitizens under age 16 because they were citizens of Compact of
Free Association countries, were applying for Social Security benefits, or provided a CNMI
work-authorization document.


                                                  B-2
As shown in Figure 2, most noncitizens entering American Samoa and assigned SSNs
through the Pago Pago field office were from Samoa. About 96 percent of the
noncitizens were between the ages of 16 and 50, as shown in Figure 2a. Based on an
analysis of Detailed Earnings Queries for the noncitizen SSNs in our sample, we
found that almost 2 (18 percent) of every 10 noncitizens assigned an SSN in
American Samoa in 2007 had no wages posted to their SSA earnings record. Without
extensive investigation of each case, we could not readily determine the reason for this
situation.


               Figure 2: SSNs Assigned in 2007 by Citizenship and Country of Birth
                         for the Pago Pago, American Samoa, Field Office




                                                                       Born in Samoa
                                                                            898

              U.S. Citizens Noncitizens                                 Born in the
              1,302 (55%) 1,045 (45%)                                   Philippines
                                                                             53

                                                                        Born in Other
                                                                        Countries (10)
                                                                             94




                   Figure 2a: SSNs Assigned in 2007 by Age of Noncitizens for
                             the Pago Pago, American Samoa, Field Office

                                                 Number of         % of
                             Age Range           Noncitizens       Total
                           0 to 15 3                  20              2
                          16 to 30                   699             67
                          31 to 50                   307             29
                          51 and above                19              2
                                 Total             1,045            100

      Source for Figures 2 and 2a: Office of the Inspector General analysis of original SSNs assigned in
      Calendar Year 2007.




3
 SSA generally assigned SSNs to noncitizens under age 16 because they were applying for Social
Security or other public assistance benefits.


                                                  B-3
                                                                       Appendix C

Scope and Methodology
To achieve our objective, we:

   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

   Reviewed the current legislation applying Federal immigration law to the
    Commonwealth of the Northern Mariana Islands (CNMI).

   Reviewed reports and testimony by the Government Accountability Office related to
    American Samoa and security vulnerabilities in the CNMI and the potential impact of
    applying U.S. immigration law.

   Obtained a data extract from SSA’s Modernized Enumeration System Transaction
    History File of 5,229 original Social Security numbers (SSN) that SSA assigned to
    individuals in the CNMI and American Samoa from January 1 through
    December 31, 2007.

   From the population of 5,229 SSNs, we randomly selected and reviewed a sample
    of 200 SSNs. For each sampled SSN, we determined whether SSA personnel
    followed applicable policies and procedures when processing the SSN application.
    We independently verified immigration documents and U.S. birth records with the
    immigration and vital statistics agencies in both insular areas.

   Interviewed representatives from SSA’s Office of Income Security Programs.

   We talked, by telephone, with the managers of the SSA field offices in Saipan,
    CNMI, and Pago Pago, American Samoa, about their procedures for processing
    SSN applications.

   Contacted a representative from the Department of the Interior, Office of Insular
    Affairs to obtain information about immigration issues in the CNMI and
    American Samoa.

   Contacted a Department of Homeland Security representative to obtain information
    about the transition to U.S. immigration in the CNMI.




                                           C-1
The SSA entity reviewed was the Office of the Deputy Commissioner for Operations.
We performed our audit at the Office of Audit in Birmingham, Alabama. Our review of
internal controls was limited to SSA’s policies and procedures for processing
applications for original SSNs at its Saipan and Pago Pago field offices. We relied
primarily on Modernized Enumeration System data to complete our review and
determined the data used in the report were sufficiently reliable given the audit objective
and use of the data. We conducted our work from April through October 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.




                                            C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      February 9, 2009                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Assignment of Social Security Numbers to
           Individuals in the Commonwealth of the Northern Mariana Islands and American Samoa"
           (A-08-08-18098)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendations are
           attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ASSIGNMENT OF SOCIAL SECURITY NUMBERS (SSN) TO
INDIVIDUALS IN THE COMMONWEALTH OF THE NORTHERN MARIANA
ISLANDS (CNMI) AND AMERICAN SAMOA" (A-08-08-18098)


We have reviewed the subject report and agree with the findings and recommendations. We
appreciate your acknowledgement of the work we have done to strengthen the evidence
requirements through the changes to the SS5 Assistant. Our responses to the specific
recommendations are provided below. We are also providing a technical comment to increase
the accuracy of the report.

Recommendation 1

Establish written policies and procedures, including a list of acceptable immigration and work-
authorization documents, for assigning SSNs to noncitizens in the CNMI and American Samoa.
When the Department of Homeland Security (DHS) assumes responsibility for CNMI
immigration, SSA should reassess and revise its policies and procedures, as needed.

Response

We agree. We are in the process of writing an Emergency Message (EM) to document which
American Samoa immigration and work authorization documents meet our evidence
requirements to establish evidence of work authorization. In calendar year (CY) 2009 we will
also update the Program and Operations Manual System instructions eliminating any further
need for the EM. We anticipate releasing written policies and procedures by the end of
CY 2009.

Recommendation 2

Until DHS assumes responsibility for the CNMI immigration, instruct the Saipan field office
personnel to compare signatures on immigration documents provided by noncitizens with a
signature list of authorized immigration officials to ensure they match.

Response

We agree. We will include this instruction when we issue written policies and procedures as
noted in our response to Recommendation 1.

Recommendation 3

Reemphasize to Pago Pago field office personnel the importance of following all enumeration
policies and procedures.




                                              D-2
Response

We agree and have shared the audit findings with the San Francisco Regional Office so that Pago
Pago field office personnel are reminded to follow enumeration policies and procedures.




                                             D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Charles Lober, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-08-18098.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
